App. 1
SUPREME COURT OF OHIO
NOTICE
This slip opinion is subject to formal revision
before it is published in an advance sheet of
the Ohio Ofﬁcial Reports. Readers are requested to promptly notify the Reporter of
Decisions, Supreme Court of Ohio, 65 South
Front Street, Columbus, Ohio 43215, of any
typographical or other formal errors in the
opinion, in order that corrections may be
made before the opinion is published.
SLIP OPINION NO. 2020-OHIO-5585
[THE STATE EX REL.] SUMMERS V. FOX, PROS. ATTY., ET AL.
[Until this opinion appears in the Ohio
Official Reports advance sheets, it may
be cited as State ex rel. Summers v. Fox,
Slip Opinion No. 2020-Ohio-5585.]
Mandamus—Public records—Father who requested
public records was not acting as his inmate-son’s
designee—R.C. 149.43(B)(8)—Writ granted in part
and denied in part.
(No. 2018-0959—Submitted September 22, 2020—
Decided December 10, 2020.)
IN MANDAMUS.
-----------------------------------------------------------------------

Per Curiam.
{¶ 1} Relator, Charles A. Summers, seeks a writ
of mandamus to compel the production of public

App. 2
records by respondents, Mercer County Prosecuting
Attorney Matthew Fox and Mercer County Sheriff Jeff
Grey (collectively, “the county”). We grant the writ in
part and deny it in part.
{¶ 2} Also pending are three motions: (1) the
county’s motion for an order sealing its evidence,
(2) the county’s motion to seal its merit brief, and
(3) a motion filed by the Ohio Prosecuting Attorneys
Association (“OPAA”) for leave to ﬁle an amicus brief.
We grant the motions to seal and deny as moot the
motion for leave to file.
I.

BACKGROUND

A. The Mercer County prosecution
{¶ 3} In February 2013, a Mercer County grand
jury returned a 47-count indictment against Christopher Summers, which included two counts of rape and
more than 40 counts of felonious sexual battery. The
alleged crimes occurred when Christopher was employed by the Fort Recovery School District.
{¶ 4} J.K. attended Fort Recovery High School,
where Christopher was both her teacher and coach. In
2012, J.K. reported to law enforcement that Christopher had coerced her into a sexual relationship that
had lasted more than two years.
{¶ 5} The state voluntarily dismissed the rape
charges on the ﬁrst day of trial. On the third day of
trial, after J.K.’s testimony was nearly complete, Christopher entered a plea of guilty to eight counts of sexual

App. 3
battery in violation of R.C. 2907.03, which prohibits
sexual conduct between a teacher or coach and a student who is enrolled at the school where the teacher is
employed. He was sentenced to an aggregate prison
term of 20 years. The court of appeals afﬁrmed his conviction and sentence in October 2014. State v. Summers, 2014-Ohio-4538, 21 N.E.3d 632, ¶ 53 (3d Dist.).
B. The Darke County prosecution
{¶ 6} In January 2013, Christopher was indicted
on a single count of sexual battery against J.K. in
Darke County. He was convicted and sentenced to one
year in prison, to be served consecutively to his sentence in the Mercer County case.
{¶ 7} On October 19, 2018, Darke County Prosecutor R. Kelly Ormsby III received an e-mail from a
woman named Joyce White, requesting “everything
you have on Chris Summers.” In December 2018,
Ormsby provided White with all the documents in his
possession relating to Christopher’s prosecution in
Darke County. The documents included what appears
to be J.K.’s detailed account of Christopher’s behavior,
containing graphic sexual content.
C. The “Justice for Chris” Facebook page
{¶ 8} Relator, Charles Summers, and Vicki Summers are Christopher’s parents. In May 2015, they
started a Facebook page called “Justice for Chris.” The
page states that it was created “with the hope that

App. 4
everyone who knows us will learn the whole truth behind what happened to our son.”
{¶ 9} Charles and Vicki have used the page as a
platform to attack ofﬁcials connected with the case
against Christopher, calling the detectives “bumbling
fools” and the trial judge “a very vindictive and mean
little man” and accusing county ofﬁcials of prosecuting
Christopher in order to cover up a larger rape scandal.
{¶ 10} But the primary target of the “Justice for
Chris” site was J.K., who is described in posts as “sick
minded and a huge liar,” a “sociopathic liar,” and in
need of “a psychological exam.” The posts routinely
identiﬁed her by name Charles and Vicki posted J.K. ‘s
weight and photos of her eating, ostensibly to refute
her claim that the stress of her experience with Christopher caused her to lose weight. They questioned how
she could become engaged, married, and pregnant so
soon after the events involving Christopher.
{¶ 11} In early postings, Charles and Vicki set
out to prove that J.K. had lied in court, by comparing
her trial testimony with that of other witnesses. They
also insisted that Christopher should not have been
prosecuted because J.K. had been a willing participant
in the sexual relationship. They pointed to J.K.’s texts
as “irrefutable proof that the relationship was mutual
and consensual,” not a product of force or coercion.
{¶ 12} As they acquired documents related to
the case, Charles and Vicki posted them online, along
with their comments. In April 2018, they posted excerpts from J.K.’s written statement to the police,

App. 5
apparently the same one provided to White by Darke
County, with a link to the full document. On January
21, 2018, they wrote that “[r]ecently, some of the interview videos have been posted on another website.”
They then reposted clips of police interviewing J.K.,
adding captions and summaries for each clip.
{¶ 13} In June 2019, Charles and Vicki were indicted in Celina Municipal Court for 62 counts of menacing by stalking, telecommunications harassment,
and attempts to commit those offenses. On February
10, 2020, the municipal court stayed all proceedings in
the case pending the resolution of related litigation between the parties.
D. Charles’s public-records requests
{¶ 14} On or about February 1, 2017, Charles
sent a public-records request to the Mercer County
Prosecutor’s Ofﬁce. He requested the following:
[1] Any and all video recordings of interviews with the accuser and any other witnesses that were interviewed in the case of
State of OH vs Christopher A. Summers 12CRM-129 and 13-CRM 030.
[2] Any and all audio recordings of interviews or phone calls made with the accuser
or potential witness [sic] in the case of State
of OH vs Christopher A. Summers 12-CRM129 and 13-CRM 030.
[3 Any and all notes made by the prosecutor or [a] member of his staff or the sheriff ’s

App. 6
detectives during interviews with the accuser
or any potential witnesses in the case of State
of OH vs Christopher A. Summers 12-CRM129 and 13-CRM 030.
[4] Any and all police reports ﬁled by
members of the Mercer County Sheriff ’s Dept
in the case of State of OH vs Christopher A.
Summers 12-CRM-129 and 13-CRM 030.
[5] Recordings of any phone calls made
to the sheriff ’s ofﬁce or 911 from the mother
of the accuser on or about November 5, 2012.
Also any other recordings of phone calls to
central dispatch or sheriff ’s ofﬁce concerning
the case of State of OH vs Christopher A.
Summers 12-CRM-129 and 13-CRM 030.
[6] Copies of letters sent to potential defense witnesses by the prosecutor or any
member of his staff in the case of State of OH
vs Christopher A. Summers 12-CRM-129 and
13-CRM 030.
[7] Any pictures or notes taken during
the search of the home of Chris and Laurie
Summers on or about November 6, 2012.
[8] Any correspondence between the
prosecutor and/or members of his staff to the
defense lawyers, Howell and Lammers in the
case of State of OH vs Christopher A. Summers 12-CRM-129 and 13-CRM 030.
[9] Any statements (written or recorded) made by the accuser [J.K.] to any member of the Sheriff ’s Dept or the Prosecutor’s
Ofﬁce.

App. 7
[10] Any statements (written or recorded) made by the accuser’s mother [L.K.] or
any member of the [K.] family.
{¶ 15} On March 6, 2017, he sent a similar public-records request to the Mercer County sheriff. He requested the following:
[1] Any and all video recordings of interviews with the accuser [J.K.] and any other
witnesses that were interviewed in the case of
State of OH vs Christopher A. Summers 12CRM-129 and 13-CRM 030.
[2] Any and all audio recordings of interviews or phone calls made with the accuser
or potential witnesses in the case of State of
OH vs Christopher A. Summers 12-CRM-129
and 13-CRM 030.
[3] Any and all notes made by the sheriff ’s detectives during interviews with the accuser or any potential witnesses in the case of
State of OH vs Christopher A. Summers 12CRM-129 and 13-CRM 030.
[4] Any and all police reports ﬁled by
members of the Mercer County Sheriff ’s Dept
in the case of State of OH vs Christopher A.
Summers 12-CRM-129 and 13-CRM 030.
[5] Recordings of any phone calls made
to the sheriff ’s ofﬁce or 911 from the mother
of the accuser on or about November 5, 2012.
Also any and all other recordings of phone
calls to central dispatch or sheriff ’s ofﬁce

App. 8
concerning the case of State of OH vs Christopher A. Summers 12-CRM-129 and 13-CRM
030.
[6] Any pictures or notes taken during
the search of the home of Chris and Laurie
Summers on or about November 6, 2012.
[7] Any correspondence between members of the Mercer County Sheriff ’s Department to [sic] the Mercer County Prosecutor of
member [sic] of his staff in the case of State of
OH vs Christopher A. Summers 12-CRM-129
and 13-CRM 030.
[8] Any statements (written or recorded) made by the accuser [J.K.] to any member of the Sheriff ’s Department.
[9] Any statements (written or recorded) made by the accuser’s mother [L.K.] or
any member of the [K.] family.
{¶ 16} The county denied Charles’s requests, offering multiple justiﬁcations. As an inmate, Christopher would have had to secure approval from the judge
who sentenced him before he could demand records relating to his case. R.C. 149.43(B)(8). The county took
the position that Charles, because he was Christopher’s father, was subject to the same requirement. It
also denied the requests as overbroad and subject to
various privileges.
{¶ 17} On May 4, 2017, Charles sent a second
request, in which he denied that he was acting as

App. 9
Christopher’s designee. The county again rejected the
requests, in a letter dated May 31, 2017.
II.

PROCEDURAL HISTORY

{¶ 18} On July 12, 2018, Charles commenced
this action for a writ of mandamus. After court-ordered
mediation, Fox provided some responsive records to
Charles’s counsel.
{¶ 19} On June 26, 2019, we granted an alternative writ of mandamus. 156 Ohio St.3d 1440, 2019Ohio-2496, 125 N.E.3d 903. J.K. ﬁled a motion for leave
to intervene as a respondent, which we granted. 156
Ohio St.3d 1480, 2019-Ohio3170, 128 N.E.3d 247.
{¶ 20} The county ﬁled six volumes of evidence,
which did not include copies of the records at issue in
this case. It also ﬁled a motion for leave to ﬁle portions
of that evidence under seal and moved for leave to have
its merit brief placed under seal. We also received three
amicus briefs in support of the county, from (1) the National Crime Victim Law Institute, the Ohio Domestic
Violence Network, and the Ohio Alliance to End Sexual
Violence, (2) The Buckeye State Sheriffs’ Association,
and (3) the OPAA, which submitted its brief along with
its motion for leave to ﬁle.
{¶ 21} The parties all requested oral argument,
which we granted. 157 Ohio St.3d 1501, 2019-Ohio4768, 134 N.E.3d 1225. We heard oral argument on
April 8, 2020, after which we ordered Fox to submit
the disputed records for inspection. Our order also

App. 10
commanded: “Respondent Fox shall * * * ﬁle with the
court a document-by-document list of each document
that he claims is privileged and/or subject to a statutory exception. The list shall include a detailed explanation of the reason(s) that each document is subject
to privilege or a statutory exception.” 158 Ohio St.3d
1462, 2020-Ohio-1424, 142 N.E.3d 684. On May 28,
2020, Fox complied with that order.
III.

LEGAL ANALYSIS

A. Preliminary matters
{¶ 22} Before we reach the substance of Charles’s
public-records requests, we must address several preliminary issues.
{¶ 23} First, the OPAA ﬁled a motion for leave to
ﬁle an amicus brief in support of the county, along with
a copy of the proposed brief. However, under our rules,
“an amicus curiae may ﬁle a merit brief in an original
action without leave of court.” State ex rel. Duke Energy
Ohio, Inc. v. Hamilton Cty. Court of Common Pleas, 126
Ohio St.3d 41, 2010-Ohio-2450, 930 N.E.2d 299, ¶ 11;
see also S.Ct.Prac.R. 12.07(A) and 16.06(A). Because
leave is not required, we deny the motion as moot.
{¶ 24} Second, when it ﬁled its evidence, the
county also ﬁled a motion for leave to ﬁle the exhibits
under seal. One month later, the county moved to have
its merit brief placed under seal. The county asked to
have speciﬁc items of evidence sealed, including the afﬁdavits of J.K., Fox, and Sergeant Detective Megan

App. 11
Baker of the Mercer County Sheriff ’s Ofﬁce, as well as
copies of posts from the Justice for Chris Facebook
page. We have reviewed the ﬁlings and ﬁnd that much
of the information they contain is personal and sensitive and pertains to people who did not choose to ﬁle
this lawsuit or place this information before the public.
Moreover, Charles has not opposed the motions. We
therefore grant them.
{¶ 25} Finally, several of Charles’s public-records requests are no longer live controversies because
the parties appear to agree that the county provided
the responsive records during mediation. The county
represents that these records include police reports
(Charles’s fourth request to both Fox and Grey), calls
to 911 or the sheriff ’s ofﬁce (Charles’s ﬁfth request to
both Fox and Grey), notes and pictures taken during
the search of Christopher’s home (Charles’s seventh request to Fox and sixth request to Grey), and statements made by the accuser’s family (Charles’s tenth
request to Fox and ninth request to Grey). Charles has
not contested this representation; indeed, in his ﬁlings,
he does not list these records among his outstanding
requests. As a result, we hold that Charles’s requests
for these records are moot.
B. The public-records requests
{¶ 26} The Public Records Act, R.C. 149.43, requires a public ofﬁce to promptly make copies of public
records available to any person upon request. R.C.
149.43(B)(1). A “public record” is a record “kept by any

App. 12
public ofﬁce.” R.C. 149.43(A)(1). Mandamus is an appropriate action by which to compel compliance with
the Public Records Act. R.C. 149.43(C)(1)(b); State ex
rel. Physicians Commt. for Responsible Medicine v.
Ohio State Univ. Bd. of Trustees, 108 Ohio St.3d 288,
2006-Ohio-903, 843 N.E.2d 174, ¶ 6.
{¶ 27} To be entitled to the writ, Charles must
demonstrate by clear and convincing evidence that he
has a clear legal right to the requested relief and that
the county has a clear legal duty to provide that relief.
See State ex rel. Cincinnati Enquirer v. Sage, 142 Ohio
St.3d 392, 2015-Ohio-974, 31 N.E.3d 616, ¶ 10. Ohio’s
Public Records Act “is construed liberally in favor of
broad access, and any doubt is resolved in favor of disclosure of public records.” State ex rel. Cincinnati Enquirer v. Hamilton Cty., 75 Ohio St.3d 374, 376, 662
N.E.2d 334 (1996).
{¶ 28} The two ofﬁces involved here, the Mercer
County prosecuting attorney and the Mercer County
sheriff, are public ofﬁces subject to the requirements of
the Public Records Act. State ex rel. McCaffrey v. Mahoning Cty. Prosecutor’s Ofﬁce, 133 Ohio St.3d 139,
2012-Ohio-4246, 976 N.E.2d 877, ¶ 1; State ex rel.
Rocker v. Guernsey Cty. Sheriff ’s Ofﬁce, 126 Ohio St.3d
224, 2010-Ohio-3288, 932 N.E.2d 327, ¶ 14. Because
the county has invoked a number of statutory exceptions to the Public Records Act’s disclosure requirement, it bears the burden of proof with respect to those
exceptions. State ex rel. Besser v. Ohio State Univ., 89
Ohio St.3d 396, 398, 732 N.E.2d 373 (2000). To meet
this burden, a custodian must prove that the requested

App. 13
records fall squarely within the exception. State ex rel.
Miller v. Ohio State Hwy. Patrol, 136 Ohio St.3d 350,
2013-Ohio-3720, 995 N.E.2d 1175, ¶ 23.
1. The evidence that Charles
was a designee for Christopher
{¶ 29} As an initial matter, the county cites
R.C. 149.43(B)(8) as one basis for its refusal to comply with any of Charles’s public-records requests. R.C.
149.43(B)(8) states that there is no duty to provide to
an inmate “any public record concerning a criminal investigation or prosecution” unless “the judge who imposed the sentence * * * ﬁnds that the information
sought in the public record is necessary to support
what appears to be a justiciable claim of the person.”
For example, an inmate who seeks records of his arraignment cannot compel the production of those public records without a ﬁnding by the sentencing judge
that the record supports a valid claim. McCain v. Huffman, 151 Ohio St.3d 611, 2017-Ohio-9241, 91 N.E.3d
749, ¶ 12.
{¶ 30} The county contends that R.C. 149.43(B)(8)
applies in this case because Charles was acting as
Christopher’s designee, citing State ex rel. Barb v.
Cuyahoga Cty. Jury Commr., 128 Ohio St.3d 528, 2011Ohio-1914, 947 N.E.2d 670 (“Barb II”). In that case,
the Eighth District Court of Appeals held that Herbert Barb was acting as his inmate-brother Danny’s
“designee” in requesting records related to Danny’s
conviction. State ex rel. Barb v. Cuyahoga Cty. Jury

App. 14
Commr., 8th Dist. Cuyahoga No. 95005, 2010-Ohio6190, ¶ 7 (“Barb I”). The court of appeals denied the
writ for two reasons. First, Danny had already made
four prior unsuccessful attempts to obtain a writ of
mandamus, so res judicata applied to requests made
by Danny, whether directly or indirectly. Id. at ¶ 11-12.
And second, even if it were the ﬁrst request, Herbert
would still be bound by the restriction upon Danny:
“Herbert may not do indirectly what Danny is prohibited from doing directly,” namely secure the documents
without the approval of the trial judge required by R.C.
149.43(B)(8). Id. at ¶ 13. On appeal, we afﬁrmed, citing
both bases for denying the writ. Barb II at ¶ 1.
{¶ 31} A “designee” is “[s]omeone who has been
designated to perform some duty or carry out some
specific role.” Black’s Law Dictionary 541 (10th Ed.2014).
And to “designate” means “[t]o choose (someone or
something) for a particular job or purpose.” Id. Thus,
the term connotes some intentional agency. In his afﬁdavit, Charles attests, “I am not now nor have I at any
other time acted as a designee of Mr. Christopher Summers.”
{¶ 32} The county claims, to the contrary, that
the evidence conﬁrms that Charles was acting as
Christopher’s designee. It asserts that “Christopher’s
inmate emails and phone calls establish that [Charles]
is posting items on the Facebook page at the explicit
instruction of Christopher.” It points to an e-mail to
Christopher dated February 4, 2018, in which Charles
wrote, “you tell mom exactly what you want put on the
FB page and she will.” Along the same lines, the county

App. 15
claims that “[i]n an email dated November 18, 2018,
Christopher gives detailed instructions” to a private
investigator named Jack Bastian “on how the public
records request by Joyce White to Darke County
should be handled.” And the county cites other telephone calls and e-mails in which Christopher and
Charles discuss whether to post videos of the witnesses
on the Facebook page.
{¶ 33} However, this evidence has little probative value for proving that Charles was acting as
Christopher’s designee when he requested public records. The e-mail from Charles quoted above was written over one year after Charles sent his ﬁrst publicrecords request, and the e-mail does not mention those
requests. And the county’s own evidence suggests that
Bastian and White were hired not by Charles or Christopher but by Jeffrey Rasawehr, who operates the website www.countycoverup.com and the Facebook page
“County Cover-up,” which also publishes articles about
Christopher’s criminal case. Essentially, the county invites us to assume that if Christopher was directing
his father in the operation of the Facebook page, then
he must have also been the driving force behind the
requests. But an assumption does not rise to the level
of clear and convincing proof necessary to apply an exception to the Public Records Act. See State ex rel. Cincinnati Enquirer v. Jones-Kelley, 118 Ohio St.3d 81,
2008-Ohio-1770, 886 N.E.2d 206, ¶ 22-23 (public-records custodian bears the burden of proving that a statutory exception to disclosure applies to the facts of the
speciﬁc case).

App. 16
{¶ 34} In lieu of direct evidence that Charles
submitted his public-records requests at Christopher’s
behest, the county implicitly asks us to adopt a presumption of agency. In Barb I, the court of appeals discerned a designee relationship from the fact that the
requester was seeking the records in an effort to prove
that Danny Barb was denied a fair trial. Barb I, 8th
Dist. Cuyahoga No. 95005, 2010-Ohio-6190, at ¶ 7.
Similarly, here, the county contends that Charles was
serving the interests of Christopher by requesting the
records and that his intent to beneﬁt Christopher
should make him subject to the same requirement of
prior court approval as Christopher. But by its plain
terms, R.C. 149.43(B)(8) applies to requests from an inmate; there is no textual basis for extending the statutory language to someone who simply wants to beneﬁt
an inmate.
{¶ 35} Alternatively, the county asks us to fashion a per se rule creating an irrebuttable presumption
that all family members within a certain degree of consanguinity are acting as designees when they seek
criminal records relating to their imprisoned relations.
But when a statute is clear and unambiguous, a court
must apply the statute as written, without inserting or
deleting words. Dundics v. Eric Petroleum Corp., 155
Ohio St.3d 192, 2018-Ohio-3826, 120 N.E.3d 758, ¶ 7.
Had the General Assembly wished to curtail public access to court records in such a broad, categorical fashion, it would have included express language to that
effect in the Public Records Act. See, e.g., In re Application of Columbus S. Power Co., 138 Ohio St.3d 448,

App. 17
2014-Ohio-462, 8 N.E.3d 863, ¶ 26 (“had the General
Assembly intended to require that electric-distribution
utilities prove that carrying costs were ‘necessary’ before they could be recovered, it would have chosen
words to that effect”).
{¶ 36} For these reasons, we hold that the
county has failed to prove that Charles was a designee
subject to R.C. 149.43(B)(8). Therefore, the county was
not entitled to invoke that exception as a basis for its
refusal to produce the records.
2.

The first request to Fox

{¶ 37} In his ﬁrst request to Fox, Charles asked
for the video recordings of interviews with J.K. and
other witnesses in the criminal case against Christopher. Fox withheld four video recordings of interviews
of J.K., conducted on November 5, 6, 7, and 9, 2012. In
addition, Fox refused to provide the video recordings of
interviews with ﬁve witnesses: (1) L.P. on November
16, 2012, (2) D.W. on November 26, 2012, (3) D.B. on
January 31, 2013, (4) K.N. on July 11, 2013, and (5) K.F.
on July 11, 2013. The county contends that Charles’s
request for these videos is moot. Alternatively, it argues that these videos are exempt from disclosure due
to (1) the R.C. 149.43(A)(1)(v) exception for records protected from disclosure by federal law, (2) the protections of Marsy’s Law, (3) the exception for “conﬁdential
law enforcement investigatory records,” (4) the trialpreparation privilege, and (5) the attorney-workproduct privilege.

App. 18
a.

Mootness

{¶ 38} As previously noted, the Darke County
prosecutor provided records to White in response to
her public-records request. The county alleges that
Charles’s public-records requests for video recordings
of the witness interviews are moot because Charles already has possession of the videos. We reject this contention.
{¶ 39} Nothing in the text of the Public Records
Act excuses a public ofﬁce from its duty to supply records upon a showing that the requester has obtained
the record from a third party. Thus, the fact that
Charles may already have received some of the requested records from another source does not render
his requests moot.
b. J.K.’s right to privacy under
federal law and Marsy’s Law
{¶ 40} R.C. 149.43(A)(1)(v) exempts from the
Public Records Act records “the release of which is prohibited by state or federal law.” The county and J.K. assert two legal prohibitions on disclosure, based on
J.K.’s alleged right to privacy concerning the details of
the crimes against her.
{¶ 41} First, they assert that a victim of rape or
sexual assault has a constitutional right to privacy
concerning the details of the crime, which should exempt that information from disclosure. In support,
they rely on Bloch v. Ribar, 156 F.3d 673 (6th Cir.1998),

App. 19
which declared that “a rape victim has a fundamental right of privacy in preventing government officials from gratuitously and unnecessarily releasing
the intimate details of the rape where no penological
purpose is being served.” Id. at 686. According to J.K.
and the county, that privacy interest satisfies the
R.C. 149.43(A)(1)(v) exception. But Bloch, which dealt
with a civil-rights claim under 42 U.S.C. 1983, is of limited value here. The holding cited by the county and
J.K. resulted from an equitable weighing of the victim’s privacy interests against the state’s interests
favoring disclosure. Bloch at 686. Bloch is not a public-records case and it did not create the categorical exception to disclosure under federal law required by
R.C. 149.43(A)(1)(v). See, e.g., State ex rel. ESPN, Inc. v.
Ohio State Univ., 132 Ohio St.3d 212, 2012-Ohio-2690,
970 N.E.2d 939, ¶ 25 (the Family Educational Rights
and Privacy Act, 20 U.S.C. 1232g, which requires
schools receiving federal funds to keep sensitive student information conﬁdential, is a prohibition on the
release of records). As a result, J.K. and the county
have failed to show that federal law prohibits disclosure of the witness-interview video recordings.
{¶ 42} Second, the county asserts that J.K. has
privacy rights under Ohio Constitution, Article I, Section 10a (“Marsy’s Law”) and that those rights preclude dissemination of the requested information.
Marsy’s Law seeks to “secure for victims justice and
due process throughout the criminal and juvenile justice systems” by affording certain rights, among them
the right “to be treated with fairness and respect for

App. 20
the victim’s safety, dignity, and privacy.” (Emphasis
added.) Ohio Constitution, Article I, Section 10a(A)(1).
But Marsy’s Law does not provide an exception to the
Public Records Act here. This case is a civil dispute
over the release of public records relating to a criminal matter that is no longer ongoing. Consequently,
Marsy’s Law does not provide a basis for the county to
deny Charles’s public-records requests.
c.

Confidential law-enforcement
investigatory techniques

{¶ 43} The county next asserts that the witness interviews are exempt from disclosure as “confidential law enforcement investigatory records,” R.C.
149.43(A)(1)(h). The Public Records Act deﬁnes such
records as “any record that pertains to a law enforcement matter of a criminal * * * nature, but only to the
extent that the release of the record would create a
high probability of disclosure of * * * [s]peciﬁc conﬁdential investigatory techniques or procedures,” R.C.
149.43(A)(2)(c). The county contends that disclosing
the video recordings of the interviews with J.K. and the
ﬁve witnesses “will substantially impact future investigations.”
{¶ 44} In support of this argument, the county
proffers an afﬁdavit from Baker, who attests that interviewing sexual-assault victims is a “sensitive issue”
that “requires special techniques and a thorough understanding of the sexual assault victim’s mind set.”
Baker emphasizes the importance of establishing

App. 21
rapport with the victim, but she never identiﬁes a speciﬁc technique that must not be disclosed. Nor does she
explain what is “conﬁdential” about trying to win the
conﬁdence of a witness or crime victim or approaching
the interview with a heightened degree of sensitivity.
Instead, Baker expresses concern that releasing the interviews will traumatize victims and impair Baker’s
ability to win the conﬁdence and trust of future victims. Several amici raise similar concerns, but they
also fail to identify the speciﬁc technique at issue or
explain why such a technique must remain conﬁdential.
{¶ 45} At most, Baker’s afﬁdavit and the amici’s
arguments raise a policy concern. But such concerns
do not create an investigative technique or make
such a technique confidential. As a result, there is no
merit to the assertion that the witness interviews
are records of confidential law-enforcement investigatory techniques exempt from disclosure under R.C.
149.43(A)(1)(h).
d.

Trial-preparation records

{¶ 46} The county next contends that the video
recordings of the witness interviews are exempt
from disclosure, under R.C. 149.43(A)(1)(g), as trialpreparation records. The Revised Code deﬁnes “[t]rial
preparation record” as “any record that contains information that is speciﬁcally compiled in reasonable
anticipation of, or in defense of, a civil or criminal action or proceeding, including the independent thought

App. 22
processes and personal trial preparation of an attorney.” R.C. 149.43(A)(4).
{¶ 47} The county takes the position that every
document in a prosecutor’s ﬁle, including investigatory
records prepared by other agencies, is a trial-preparation record because “[t]he copies were compiled by the
prosecutor or his assistants in preparation of the Prosecutor’s legal theories and trial strategies.” But the
presence of a record in a prosecutor’s ﬁle does not, in
and of itself, turn something into a trial-preparation
record. Sage, 142 Ohio St.3d 392, 2015-Ohio-974, 31
N.E.3d 616, at ¶ 15, citing State ex rel. Carpenter v.
Tubbs Jones, 72 Ohio St.3d 579, 580, 651 N.E.2d 993
(1995). Rather, it is the nature of the record itself that
determines its exempt or non-exempt status, and what
would otherwise constitute non-exempt records “do not
become ‘trial preparation records’ simply because they
are contained within a prosecutor’s ﬁle.” Carpenter at
580. This places the recordings of the witness interviews outside of the exception stated in State ex rel.
Steckman v. Jackson, 70 Ohio St.3d 420, 431-432, 639
N.E.2d 83 (1994), and later limited by State ex rel.
Caster v. Columbus, 151 Ohio St.3d 425, 2016-Ohio8394, 89 N.E.3d 598, concerning records contained in
the prosecution’s ﬁle.
{¶ 48} Under our caselaw, whether a record is
speciﬁcally compiled in anticipation of a criminal proceeding often determines whether it constitutes a trialpreparation record. Thus, “general fact-finding investigations do not produce trial-preparation records,
as ‘such investigations do not meet the “speciﬁcally

App. 23
compiled” requirement of the statute.’ ” Sage at 1114,
quoting State ex rel. Coleman v. Cincinnati, 57 Ohio
St.3d 83, 84, 566 N.E.2d 151 (1991), quoting R.C.
149.43(A)(4). But when witness statements to law enforcement are “ ‘speciﬁcally prepared * * * for the sole
purpose of providing the prosecutor with the information necessary to present the case to the grand jury
and to the jury at the criminal trial,’ ” they constitute
trial-preparation records and the exception applies.
(Ellipsis sic.) State ex rel. Hamblin v. Brooklyn, 67 Ohio
St.3d 152, 153, 616 N.E.2d 883 (1993), quoting State
ex rel. Hamblin v. Brooklyn, 8th Dist. Cuyahoga No.
58013, 1991 WL 502005, *3 (July 1, 1991).
{¶ 49} None of law enforcement’s interviews of
J.K. fall within the statutory deﬁnition of trial-preparation records. The ﬁrst interview of J.K. occurred on
November 5, 2012, two days before a criminal complaint was ﬁled against Christopher. It was conducted
by a uniformed deputy sheriff at the ofﬁce of the county
sheriff. There is no evidence that attorneys for the
state played any role in the interview or that the interview was conducted in preparation for trial rather
than to gather information in the course of investigating a potential crime. The same is true of the interviews with J.K. conducted on November 6, 7, and 9,
2012, which were conducted by plain-clothes detectives
in the same meeting room. While the detective’s statement, in the November 9 interview, that “next week,
Thursday, I’ll be presenting the case to the grand jury”
suggests the interview was to help the detective prepare for his appearance, the county has not presented

App. 24
evidence that this interview occurred at the prosecutor’s instigation or even with the prosecutor’s knowledge. All told, none of the police interviews of J.K. meet
the deﬁnition of a trial-preparation record.
{¶ 50} This leaves the video recordings of law
enforcement interviewing the ﬁve other witnesses. But
of these remaining interviews, only two, the July 11,
2013 interviews of K.N. and K.F, were for the purpose
of trial preparation, rather than general investigation.
In each interview, the interviewing detectives informed the witness that Christopher’s trial was imminent and that they were collecting information in
anticipation of and for possible use at trial. For this
reason, the recordings of the interviews of K.N. and
K.F. can be reasonably understood to meet the statutory deﬁnition of trial-preparation records and are not
subject to production. The other interviews, however,
lack such indicia do not qualify as trial-preparation
records under the statutory deﬁnition.
{¶ 51} Finally, the county asks us to craft a new
exception to the Public Records Act to protect the privacy of witnesses, based on Sup.R. 12(C)(2), which requires judges to “inform victims and witnesses of their
right to object to being ﬁlmed, videotaped, recorded, or
photographed.” The county suggests that “Mt makes
little sense to protect a witness from such invasions at
trial, only to require that same type of record to be
made public simply because it occurs prior to trial.”
However, as noted above, the General Assembly, not
the court, is the “ultimate arbiter of policy considerations relevant to public-records laws.” Kish v. Akron,

App. 25
109 Ohio St.3d 162, 2006-Ohio-1244, 846 N.E.2d 811,
¶ 44.
{¶ 52} For these reasons, we hold that the
county has established the applicability of the trialpreparation exception to only two of the nine witnessinterview video recordings, those of K.N. and K.F.
e.

The attorney-work-product doctrine

{¶ 53} Alternatively, the county argues that the
records are beyond the scope of the Public Records Act
based on the attorney-work-product doctrine. The
work-product doctrine is a discovery privilege, codiﬁed
in Civ.R. 26(B)(4), that requires a showing of good
cause before a party may obtain trial-preparation materials from an adverse party or that party’s counsel.
{¶ 54} The Public Records Act has adopted a
work-product protection in one narrow context. A
record may be a “[c]onfidential law enforcement investigatory record” if releasing it would create a high
probability of disclosing “speciﬁc investigatory work
product.” R.C. 149.43(A)(2)(c). The exception for speciﬁc investigatory work product “does not extend beyond the completion of the trial of the underlying
criminal case at issue.” Caster, 151 Ohio St.3d 425,
2016-Ohio-8394, 89 N.E.3d 598, at ¶ 1. The scope
of speciﬁc investigatory work product under R.C.
149.43(A)(2)(c) is modeled on the attorney-workproduct privilege. See State ex rel. Cincinnati Enquirer v. Ohio Dept. of Pub. Safety, 148 Ohio St.3d 433,
2016-Ohio-7987, 71 N.E.3d 258 ¶ 41 (applying “the

App. 26
principles of attorney work product” to deﬁne the scope
of speciﬁc investigatory work product).
{¶ 55} But the exception for speciﬁc investigatory work product is a law-enforcement exception. The
Public Records Act contains no exception for attorney
work product, except insofar as attorney work product
constitutes trial-preparation records. See State ex rel.
Dist. 1199, Health Care & Social Serv. Union, SEIU,
AFL-CIO v. Gulyassy, 107 Ohio App.3d 729, 737, 669
N.E.2d 487 (10th Dist.1995) (noting that the Public
Records Act “exceptions mention attorney ‘work product’ only as it concerns preparation for litigation, and
[mention] investigatory work product only as it concerns conﬁdential law enforcement investigatory records”).
“[T]he work product doctrine is not intended
to remove public records from availability to
the public merely because they are also used
for litigation. Hence, Civ.R. 26(B)(3) does not
authorize a governmental unit to except from
R.C. 149.43 public records which are otherwise required to be made available for inspection.”
(Brackets sic.) State ex rel. Parisi v. Heck, 2d Dist.
Montgomery No. 25709, 2013-Ohio-4948, 1110, quoting
State v. Weir, 10th Dist. Franklin No. 79AP-423, 1980
WL 353222 (Jan. 10, 1980). Thus, the attorney-workproduct privilege is not an independent basis for
shielding records from disclosure under the Public
Records Act.

App. 27
{¶ 56} Because we have held that the trial-preparation exception is inapplicable, we conclude that the
attorney-work-product privilege similarly does not
shield these records from disclosure.
{¶ 57} Having rejected the county’s defenses
against disclosure, we grant the writ of mandamus as
to the records responsive to Charles’s ﬁrst request to
Fox, with the exception of the recordings of the interviews of K.N. and K.F.
3.

The second request to Fox

{¶ 58} The county withheld 14 audio recordings
that were responsive to Charles’s second request: 5 telephone calls between J.K.’s mother and the Mercer
County Sheriff s Ofﬁce; an audio recording of a “threatening” telephone call from Christopher to J.K.; audio
recordings of interviews with H.F., J.K., L.N., L.S., V.M,
and W.B.; a voicemail Laurie Summers left for J.K.; and
an audio recording of the Miranda warning given to
Christopher.
{¶ 59} The county asserts that Charles’s claim
regarding these records is “most likely moot” because
Charles is “presumably” in possession of the audio recordings because the Darke County prosecutor produced them to White. But here again, the county has
not proved that the Darke County prosecutor gave all
of these items to White or that White gave them to
Charles. Nor has the county cited caselaw to establish
that a public ofﬁce does not have to produce public

App. 28
records to a requester who is known or believed to have
obtained those records from a different source.
{¶ 60} Alternatively, the county argues that
these materials qualify as trial-preparation records.
But it has not alleged that they contain information
“specifically compiled in reasonable anticipation of,
or in defense of, a civil or criminal action.” R.C.
149.43(A)(4). For example, harassing telephone calls
from the Summers family to J.K. would not qualify as
trial-preparation records. Instead, the county claims
they are exempt solely because Fox utilized them in
preparation for the criminal trial. But as explained
above, materials are not rendered exempt from disclosure simply by their placement in a prosecutor’s ﬁle.
Because there is no evidence that these records were
speciﬁcally prepared for trial, they do not enjoy any
privilege and are not exempt from disclosure. Sage, 142
Ohio St.3d 392, 2015-Ohio-974, 31 N.E.3d 616, at ¶ 16.
{¶ 61} We grant the writ of mandamus as to the
records responsive to Charles’s second request to Fox.
4.

The third request to Fox

{¶ 62} The records responsive to Charles’s third
request consist of 92 pages of lined paper containing
hand-written notes made by Fox. Such personal notes
are outside the scope of the Public Records Act.
{¶ 63} R.C. 149.43(A)(1) deﬁnes “public record”
as a record kept by any “public ofﬁce.” (Emphasis
added.) “It does not deﬁne a ‘public record’ as any piece

App. 29
of paper on which a public ofﬁcer writes something.”
State ex rel. Steffen v. Kraft, 67 Ohio St.3d 439, 440,
619 N.E.2d 688 (1993). In Steffen, we held that a
judge’s personal notes, taken during trial, were “kept
for the judge’s own convenience and not ofﬁcial records,” and that “permitting a litigant access to a judge’s
personal trial notes would intrude upon a judge’s subjective thoughts and deliberations.” Id. The same considerations pertain to counsel’s notes.
{¶ 64} Charles argues that personal notes are
subject to the Public Records Act if the notes are maintained for future reference, citing State ex rel. Pietrangelo v. Avon Lake, 149 Ohio St.3d 273, 2016-Ohio-5725,
74 N.E.3d 419. Pietrangelo arose out of an incident at
a skate park, during which ofﬁcers spoke with people
at the park and took notes to use when preparing an
incident report. Id. at ¶ 3. We found that the notes had
been destroyed and therefore could not be produced. Id.
at ¶ 20. Pietrangelo had alleged that the police department’s recordkeeping system required that notes regarding violations of skate-park rules be maintained
at the department for future reference. Id. at ¶ 19. But
if that were true, then the notes would not have been
solely for the ofﬁcers’ personal use. In this case, by contrast, there is no evidence or allegation that the prosecutor’s ofﬁce has a policy of maintaining attorney notes
for future reference in other cases.
{¶ 65} After noting the general rule that personal notes are generally exempt from disclosure but
acknowledging that a custom of keeping the notes for
future reference might change their status, our opinion

App. 30
in Pietrangelo made two additional observations: that
Pietrangelo believed that the notes contained information not in the incident report and that the city admitted in its answer that this might be the case. Based
on this dictum, Charles argues that personal notes are
subject to disclosure if they contain exonerating information not in a public report.
{¶ 66} But we did not adopt such a rule in Pietrangelo, and we decline to do so now. Personal notes
fall outside the scope of the Public Records Act due to
the circumstances of their creation: when the notes are
taken by an ofﬁcial for his own personal convenience
and are not required to be maintained, they are not
records of the ofﬁce. This distinguishes the personalnotes exception from other exceptions (for example, the
attorney-client privilege) that depend for their existence on the substance of the information contained in
the record. We fail to see why personal notes might lose
their exempt status simply because they contain information that is not included in an ofﬁcial report.
{¶ 67} We deny the writ of mandamus as to the
personal notes sought in Charles’s third request to Fox.
5.

The sixth request to Fox

{¶ 68} With respect to Charles’s sixth request,
Fox submitted three computer files to the court under seal, but most of the documents contained
therein are not responsive to the request. The first
two files contain correspondence between the prosecutor’s office and individuals in the Ohio Attorney

App. 31
General’s Cybercrimes Unit or the Bureau of Criminal
Investigation, not correspondence sent to potential defense witnesses.
{¶ 69} The third ﬁle contains 27 letters to prospective trial witnesses signed by Fox. The ﬁrst 17 letters are beyond the scope of the request because they
were sent to the state’s potential witnesses, not to defense witnesses.
{¶ 70} The remaining ten letters, dated June 19,
were sent to witnesses identiﬁed by the defense. The
county argues that these letters constitute trialpreparation records because “any correspondence
between [Fox] and potential witnesses regarding testimony at a pending criminal trial would necessarily
contain information that was compiled in anticipation
of the trial” and would reveal his trial strategy and
preparation. However, a review of the letters shows
that they do not contain any substantive information
that would be unknown to the defense. The letters
merely indicate that the prosecutor wishes to speak
with the defense witnesses. But the letters give no indication as to the substantive topics he will discuss
with those witnesses or what their trial testimony
might be, and they therefore do not reveal his trial
strategy.
{¶ 71} We therefore grant a writ of mandamus
as to those ten letters, which are responsive to
Charles’s sixth request to Fox.

App. 32
6.

The eighth request to Fox

{¶ 72} Fox initially denied Charles’s eighth request on the ground that the requested correspondence
was attorney work product (even though the request
expressly sought communications with opposing counsel). In this litigation, the county has abandoned that
defense and instead asserts that the request is overbroad. We reject that contention.
{¶ 73} A person who wishes to inspect public
records must identify the records at issue with reasonable clarity. State ex rel. Zidonis v. Columbus State
Community College, 133 Ohio St.3d 122, 2012-Ohio4228, 976 N.E.2d 861, ¶ 21. The Public Records Act
“does not contemplate that any individual has the
right to a complete duplication of voluminous ﬁles kept
by government agencies.” State ex rel. Warren Newspapers, Inc. v. Hudson, 70 Ohio St.3d 619, 624, 640
N.E.2d 174 (1994). Thus, a request that seeks duplication of entire categories of documents is overly broad
and may be denied on that basis. See, e.g., Zidonis at
1123 (request for whole categories of complaint and litigation ﬁles without any limitation as to content or
time period was overbroad).
{¶ 74} As a general rule, a public ofﬁcial may assert a public-records exception in litigation that the ofﬁcial did not raise in the initial rejection letter. See, e.g.,
McDougald v. Greene, ___ Ohio St.3d ___, 2020-Ohio4268, ___ N.E.3d ___, ¶ 18 (Kennedy, J., dissenting)
(noting that respondent abandoned his original legal
theory when the mandamus complaint was ﬁled). But

App. 33
permitting a public ofﬁcial to oppose a request as overbroad for the ﬁrst time in litigation would enable the
ofﬁcial to avoid the duty, when denying a request as
overly broad, to “provide the requester with an opportunity to revise the request by informing the requester
of the manner in which records are maintained by the
public ofﬁce and accessed in the ordinary course.” R.C.
149.43(B)(2). Having failed to allow Charles the opportunity to cure, the county cannot assert an overbreadth
objection now.
{¶ 75} Moreover, Charles’s request is not comparable in its breadth to those we have previously rejected. He requested correspondence with speciﬁc
parties (Christopher’s defense attorneys) relating to a
speciﬁc topic (Christopher’s criminal case). The county
has not presented evidence that the manner in which
such records are maintained in Fox’s ofﬁce—or the
number of employees whose ﬁles would need to be
searched—made the request prohibitively difﬁcult to
comply with. Indeed, in response to this court’s order,
Fox located and ﬁled under seal 13 e-mail chains between employees in his ofﬁce and Christopher’s attorneys.
{¶ 76} Because the county has presented no argument that these e-mail chains are exempt from disclosure, we grant a writ of mandamus as to the 13
e-mail chains, which are responsive to Charles’s eighth
request to Fox.

App. 34
7.

The ninth request to Fox

{¶ 77} Relevant to Charles’s ninth request, J.K.
provided three written statements to the sheriff ’s ofﬁce: a ﬁve-page undated statement, a two-page statement dated January 4, 2013, and a one-page statement
describing events that occurred on April 26, 2013. With
respect to the ﬁrst two statements, the county reiterates arguments that we rejected in our analysis of the
video recordings: that the claims are moot because
Charles already obtained them from Darke County
and that they are exempt from disclosure because they
contain details of the sexual offenses.
{¶ 78} As for the third statement, the county
questions whether it qualiﬁes as a “statement” because
it is only one paragraph long. But Charles’s request for
J.K.’s written statements was not conditioned on their
lengths.
{¶ 79} We grant a writ of mandamus as to J.K.’s
three witness statements, which are responsive to
Charles’s ninth request to Fox.
8.

The requests to Grey

{¶ 80} Charles sent nine requests to Grey. As
noted above, Charles’s fourth, ﬁfth, sixth, and ninth requests to Grey were resolved in mediation. Charles is
no longer seeking relief as to those requests. Charles’s
ﬁrst, second, and eighth requests to Grey (for video and
audio recordings of witness interviews and for written
statements made by J.K.) are identical to his ﬁrst,

App. 35
second, and ninth requests to Fox, and Grey relies on
the same arguments made by Fox. We therefore grant
a writ of mandamus as to those requests (except for the
recordings of the July 11, 2013, interviews with K.N.
and K.F.) for the reasons set forth above.
{¶ 81} In his third request to Grey, Charles demanded copies of notes taken by detectives during interviews with J.K. or other witnesses. The county
asserts that Grey is “not in possession of responsive
records” with respect to Charles’s third request. But
that is not accurate. The ﬁles submitted for review in
response to Charles’s seventh request to Grey—seeking correspondence between the sheriff ’s ofﬁce and the
prosecutor’s ofﬁce—contain 11 pages of witness-interview notes prepared by Detective Doug Timmerman.
The pages are captioned “Investigator Notes” or “Follow Up Investigation Notes.”
{¶ 82} The county suggests that even if such records exist, they are not public records because they are
for personal use. But that claim is inconsistent with
the evidence in the record: Timmerman sent those
notes to Fox to assist him with his case preparation, as
evidenced by the cover e-mail. The notes were thus not
prepared solely for the detective’s personal use. We
grant a writ of mandamus as to the 11 pages of notes,
which are responsive to Charles’s third request to
Grey.
{¶ 83} In his seventh request to Grey, Charles
sought correspondence between the Mercer County
Sheriff ’s Ofﬁce and the Mercer County Prosecutor’s

App. 36
Ofﬁce relating to Christopher’s case. Relevant to this
request, the county submitted three computer ﬁles of
responsive records under seal, totaling 71 pages. It opposes this request based on overbreadth, the attorneyclient privilege, the work-product privilege, and the
trial-preparation privilege.
{¶ 84} With respect to overbreadth, the county
has merely asserted the defense without offering any
support. The request is more speciﬁc than those that
courts have deemed overly broad, as discussed above.
The county’s true objection appears to be that the request is burdensome, but it has offered no evidence in
support. We cannot simply credit a bare assertion that
a request is overbroad or burdensome.
{¶ 85} Next, the county invokes the attorney-client privilege. “Records of communications between attorneys and their state-government clients pertaining
to the attorney’s legal advice are excepted from disclosure under R.C. 149.43(A)(1), since the release of those
documents is prohibited by state law.” State ex rel.
Thomas v. Ohio State Univ., 71 Ohio St.3d 245, 249,
643 N.E.2d 126 (1994). However, the privilege extends
only to government agencies consulting with counsel
“for legal advice or assistance.” State ex rel. Leslie v.
Ohio Hous. Fin. Agency, 105 Ohio St.3d 261, 2005Ohio-1508, 824 N.E.2d 990, ¶ 30.
{¶ 86} With a few exceptions, the 71 pages at issue do not reﬂect the sheriff seeking—or the prosecutor providing—legal guidance. To the contrary, the
majority of the communications are from the sheriff,

App. 37
offering information and assistance to the prosecutor
(as in the instance discussed above, in which Detective
Timmerman sent his interview notes to Fox). However,
three pages in the ﬁle that is titled “Prosecutor Emails
with Sheriff ” must be redacted. The e-mails on pages
38, 39, and 41 all contain discussions in which Detective Timmerman asks Fox for legal guidance. Those
pages must be redacted because they contain attorneyclient communications.
{¶ 87} Finally, the county argues that these emails are subject to the work-product and trial-preparation exceptions. Insofar as the e-mails are work product, the exception would have expired at the conclusion
of Christopher’s original trial, as explained above. Similarly, there is no indication these records were speciﬁcally prepared in reasonable anticipation for trial. As
such, they do not meet the statutory deﬁnition of trialpreparation materials and do not qualify for that statutory exemption.
{¶ 88} For these reasons, we grant a writ of mandamus as to Charles’s seventh request to Grey, except
for the pages identiﬁed above.
IV.

CONCLUSION

{¶ 89} For the reasons set forth above, we grant
a writ of mandamus as to Charles’s ﬁrst, second, sixth,
eighth, and ninth requests to Fox (except for the recordings of the July 11, 2013 interviews with K.N. and
K.F.); we deny the writ as to Charles’s third request to
Fox; and we deny the writ as moot with respect to

App. 38
Charles’s remaining requests to Fox. We grant a writ
of mandamus as to Charles’s ﬁrst, second, third, seventh, and eighth requests to Grey (except for the recordings of the July 11, 2013 interviews with K.N. and
K.F. and with redactions to the records responsive to
the seventh request, as explained above); and we deny
the writ as moot with respect to Charles’s remaining
requests to Grey. Charles may ﬁle a supplemental
pleading on the subject of court costs, statutory damages, or attorney fees within two weeks of the date of
this decision. The county will then have two weeks in
which to respond.
Writ granted in part
and denied in part.
KENNEDY, FISCHER, DEWINE, DONNELLY, and STEWART, JJ., concur. FRENCH, J., concurs in part and dissents in part, with an opinion joined by O’CONNOR, C.J.

FRENCH, J., concurring in part and dissenting
in part.
{¶ 90} Although I concur in the majority’s disposition of the pending motions, I respectfully dissent
from the issuance of a writ of mandamus to compel
respondents, Mercer County Prosecuting Attorney
Mathew Fox and Mercer County Sheriff Jeff Grey, to
produce the public records that relator, Charles A.
Summers, has requested. Because I conclude that
Charles is acting as a designee of his incarcerated son,

App. 39
Christopher Summers, and because neither he nor
Christopher has complied with R.C. 149.43(B)(8), I
would deny the writ.
{¶ 91} Christopher pleaded guilty to eight
counts of sexual battery in violation of R.C. 2907.03,
which prohibits sexual conduct between a teacher or
coach and a student who is enrolled at the school where
the teacher or coach is employed. The Third District
Court of Appeals afﬁrmed Christopher’s convictions
and 20-year aggregate prison sentence. State v. Summers, 2014-Ohio-4538, 21 N.E.3d 632, ¶ 53 (3d Dist.).
{¶ 92} In February and March 2017, Charles requested from respondents public records concerning
the investigation of the charges against Christopher
and the prosecution of his criminal case. Respondents
denied Charles’s requests. As relevant here, respondents stated that as Christopher’s father, Charles had
to comply with R.C. 149.43(B)(8) by obtaining approval
from the judge who had sentenced Christopher before
Charles could demand records relating to Christopher’s
criminal case. Charles denies that he was acting as
Christopher’s designee when he submitted the publicrecords requests, and he now seeks a writ of mandamus ordering respondents to produce the requested
records. After this court granted an alternative writ of
mandamus, 156 Ohio St.3d 1440, 2019-Ohio-2496, 125
N.E.3d 903, Charles ﬁled an afﬁdavit and exhibits in
support of a peremptory writ and respondents ﬁled six
volumes of evidence in opposition to Charles’s claim.

App. 40
{¶ 93} Generally, the Public Records Act, R.C.
149.43, requires a public ofﬁce or a person responsible
for public records to make copies of public records
available to a requester at cost and within a reasonable
time. R.C. 149.43(B)(1). The requester’s purpose for
seeking public records is normally immaterial. State ex
rel. Steckman v. Jackson, 70 Ohio St.3d 420, 427, 639
N.E.2d 83 (1994), overruled on other grounds, State ex
rel. Caster v. Columbus, 151 Ohio St.3d 425, 2016-Ohio8394, 89 N.E.3d 598. But R.C. 149.43(B)(8), which restricts an inmate’s ability to demand public records,
creates an exception in which an inmate’s purpose for
seeking records relating to a criminal investigation or
prosecution is dispositive. State ex rel. Barb v. Cuyahoga Cty. Jury Commr., 8th Dist. Cuyahoga No. 95005,
2010-Ohio-6190, 116 (“Barb I”).
{¶ 94}

R.C. 149.43(B)(8) states:

A public ofﬁce or person responsible for
public records is not required to permit a person who is incarcerated pursuant to a criminal conviction * * * to inspect or to obtain a
copy of any public record concerning a criminal investigation or prosecution * * * unless
the request to inspect or to obtain a copy of the
record is for the purpose of acquiring information that is subject to release as a public
record under this section and the judge who
imposed the sentence * * * with respect to the
person, or the judge’s successor in ofﬁce, ﬁnds
that the information sought in the public record is necessary to support what appears to be
a justiciable claim of the person.

App. 41
{¶ 95} R.C. 149.43(B)(8) restricts an inmate’s
ability “to obtain what would otherwise be easily obtainable by” a noninmate. State ex rel. Russell v.
Thornton, 111 Ohio St.3d 409, 2006-Ohio-5858, 856
N.E.2d 966, ¶ 15 (addressing identical language previously codified at former R.C. 149.43(B)(4)). “The
General Assembly clearly evidenced a public-policy
decision to restrict a convicted inmate’s unlimited access to public records in order to conserve law enforcement resources.” Id. at ¶ 14.
{¶ 96} Had Christopher directly submitted to respondents the requests for public records at issue here,
R.C. 149.43(B)(8) plainly would have applied, and absent the required ﬁnding by his sentencing judge,
Christopher would not have been entitled to the requested records. See State ex rel. Fernbach v. Brush,
133 Ohio St.3d 151, 2012-Ohio-4214, 976 N.E.2d 889,
¶ 2.
{¶ 97} Although R.C. 149.43(B)(8), by its express
terms, applies only to a request by “a person who is incarcerated pursuant to a criminal conviction,” we have
held that an inmate may not circumvent the requirements of R.C. 149.43(B)(8) by designating a third-party
who is not an inmate to request the records on the inmate’s behalf, State ex rel. Barb v. Cuyahoga Cty. Jury
Commr., 128 Ohio St.3d 528, 2011-Ohio-1914, 947
N.E.2d 670, ¶ 1 (“Barb II”). The single-paragraph opinion in Barb II, however, affords no indication of the contours of that court-created rule. Nor has this court
subsequently provided any additional insight.

App. 42
{¶ 98} Barb II was an appeal of the Eighth District Court of Appeals’ judgment denying Herbert
Barb’s request for a writ of mandamus to compel the
production of verdict forms and lists of prospective jurors in criminal cases against his brother, Danny Barb,
who was incarcerated as a result of his convictions in
one or more of those cases. Id.; Barb I, 8th Dist. Cuyahoga No. 95005, 2010-Ohio-6190. Previously, Danny
had directly requested those same records and had
pursued that request unsuccessfully by ﬁling an action
for a writ of mandamus. Barb I at 116.
{¶ 99} The Eighth District denied Herbert’s request for a writ of mandamus, holding both that res
judicata applied and that because Herbert was acting as Danny’s designee with respect to the publicrecords request, he was required to comply with R.C.
149.43(B)(8). Barb I at ¶ 7, 12-14. In support of its determination that Herbert was acting as Danny’s designee, the court cited Herbert’s statement that he
sought the records in a “ ‘pursuit to obtain documents
that would clearly show the violation of [Danny’s] right
to a fair trial.’ ” Id. at ¶ 7. We likewise characterized
Herbert as “Danny’s designee” and stated, “Danny cannot circumvent the requirement of R.C. 149.43(B)(8)
* * * by designating his brother to request the records
for him.” Barb II at ¶ 1. We held, “ ‘Herbert may not do
indirectly what Danny is prohibited from doing directly.’ ” Id., quoting Barb I at ¶ 13.
{¶ 100} Respondents urge this court to adopt a
per se rule that family members of an incarcerated person presumptively act as their incarcerated relative’s

App. 43
designee when they request records concerning the relative’s criminal case. I agree with the majority’s refusal to do so. Neither the statutory language in R.C.
149.43(B)(8) nor this court’s adoption of a designee rule
in Barb II supports the broad presumption that respondents propose. And although I do conclude that
Charles is acting as Christopher’s designee, it is not
simply Charles’s status as Christopher’s father that
convinces me.
{¶ 101} That said, I would not require—and, indeed, this court has never before required—the type of
express, direct delegation of authority that the majority claims is missing here in order to require a noninmate to comply with R.C. 149.43(B)(8). In Barb II, we
afﬁrmed the Eighth District’s determination that Herbert was acting as Danny’s designee based solely on
Herbert’s statement that his intent was to demonstrate that Danny did not receive a fair trial. Neither
the Eighth District nor this court cited any evidence
that Danny had expressly and directly asked Herbert
to make the public-records request on his behalf.
{¶ 102} The evidence that Charles is acting on
Christopher’s behalf here is every bit as strong as, if
not stronger than, the evidence of agency in Barb II.
In 2015, Charles and Vicki Summers, Christopher’s
mother, created a Facebook page called “Justice for
Chris” with the “hope that everyone who knows [them]
will learn the whole truth about what happened to
[their] son.” They have since used the Facebook page
as a platform to attack both public ofﬁcials connected
with Christopher’s case and the victim of Christopher’s

App. 44
offenses, as well as to implicate in possible wrongdoing
other employees of Fort Recovery High School, where
Christopher was employed as a teacher and coach at
the time of his offenses. Just as Herbert Barb sought
to prove that his brother did not receive a fair trial,
Charles and Vicki Summers have used the Facebook
page to critique what they see as unfairness in Christopher’s prosecution. As early as June 6, 2015, they
complained that “[j]ustice has not been served” and
posted evidence that they claim should have been presented at Christopher’s trial. In aid of their mission to
“bring the truth and all the evidence to the light of
day,” to discredit respondents’ version of the facts, and
to demonstrate that the relationship between the victim and Christopher—the victim’s teacher and coach—
had been “consensual,” Charles and Vicki posted on
the Facebook page documents including text messages between Christopher and the victim, phone records, written statements to the police, and videos of
police interviews.
{¶ 103} Just as Charles’s status as Christopher’s
father does not, on its own, establish that he is acting
as Christopher’s designee, the existence of the Facebook page is likewise insufﬁcient in isolation to establish that fact. But those facts, considered together with
the evidence submitted by respondents that Christopher has himself been intimately involved in the efforts to obtain and post information about his criminal
case, lead to the conclusion that Charles is acting as
Christopher’s designee and attempting to accomplish

App. 45
indirectly what Christopher cannot accomplish directly.
{¶ 104} E-mails between Christopher and his
parents demonstrate an understanding that documents relating to Christopher’s criminal case that
came into his parents’ possession were Christopher’s
property. Christopher wrote to his parents on January
31, 2018:
If you have not reviewed the videos, you
are not to look at them. If you have viewed
them, you are to immediately stop viewing or
using them. They are my property. I am directing you to put them away and not to touch
them again. Do not make copies or use them
in any way. They are not to be used.
{¶ 105} Christopher similarly instructed his
wife that the videos are “my legal property” and directed her not to watch, copy, transcribe or use them.
Charles subsequently acknowledged that the video of
the police interview with the victim is Christopher’s
property and stated that Christopher could decide
whether it should be posted.
{¶ 106} The e-mails between Christopher and
his parents also demonstrate that Christopher directed the use of documents relating to his criminal
case, including the posting of those documents on the
Facebook page. In one e-mail, Christopher suggested
that Charles contrast in a Facebook post the victim’s
trial testimony with her prior statement to police in
order to discredit the victim. And as the majority notes,

App. 46
on February 4, 2018, Charles expressly instructed
Christopher, “you tell mom exactly what you want put
on the FB page and she will.” Although these e-mails
postdate Charles’s public-records requests, they are indicative of an ongoing, joint effort by Christopher and
his parents to obtain and use documents concerning
the investigation and prosecution of Christopher’s
criminal case to attack the public officials involved,
discredit and disparage the victim, and rehabilitate
Christopher’s reputation. Viewing the evidence in its
entirety and in light of Christopher’s direction of his
parents’ efforts to obtain and post documents relating
to his criminal case, I conclude that Charles was acting
as Christopher’s designee in an attempt to avoid the
requirements of R.C. 149.43(B)(8). I would therefore
deny Charles’s request for a writ of mandamus.
{¶ 107} For these reasons, although I concur in
the majority’s resolution of the pending motions, I dissent from the majority’s judgment granting a writ of
mandamus.
O’CONNOR, C.J., concurs in the foregoing opinion.
-----------------------------------------------------------------------

Santen & Hughes and H. Louis Sirkin, for relator.
Zashin & Rich Co., L.P.A., Drew C. Piersall and
Jonathan J. Downes; and Mathew K. Fox, Mercer
County Prosecuting Attorney, and Amy B. Ikerd, Assistant Prosecuting Attorney, for respondents.
Ohio Crime Victim Justice Center and Elizabeth
A. Well, for intervening respondent, J.K.

App. 47
Rittgers & Rittgers, Konrad Kircher, and Ryan J.
McGraw, urging denial of the writ for amici curiae National Crime Victim Law Institute, Ohio Domestic Violence Network, and Ohio Alliance to End Sexual
Violence.
Kooperman, Mentel, Ferguson & Yaross, Ltd.,
Sean A. Mentel, Katherine C. Ferguson, and Lindsay
M. Nelson, urging denial of the writ for amicus curiae
Buckeye State Sheriffs’ Association.
Sherri Bevan Walsh, Summit County Prosecuting
Attorney, and Jacquenette S. Corgan, Assistant Prosecuting Attorney, urging denial of the writ for amicus
curiae Ohio Prosecuting Attorneys Association.

App. 48
The Supreme Court of Ohio
CASE ANNOUNCEMENTS
December 30, 2020
[Cite as 12/30/2020 Case Announcements #2,
2020-Ohio-6946.]

RECONSIDERATION OF PRIOR DECISIONS
2018-0959. State ex rel. Summers v. Fox.
In Mandamus. Reported at ___ Ohio St.3d ___, 2020Ohio-5585, ___ N.E.3d ___. On motion for reconsideration. Motion denied.
O’Connor, C.J., and French and Fischer, JJ., dissent.
*

*

*

